LE

2311 Douglas Street
Omaha, Nebraska68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1302
DAVID SHINN,
Petitioner,
V.

GEORGE RUSSELL KAYER,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the BRIEF FOR IDAHO,
ARKANSAS, INDIANA, MONTANA, NEBRASKA, OHIO, SOUTH CAROLINA, AND
TEXAS AS AMICI CURIAE SUPPORTING PETITIONER in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.l(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 4017 words,
excluding the parts that are exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 19th day of June, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Affiant

39855

